                

                

                        U.S. ENVIRONMENTAL PROTECTION AGENCY 

                        OFFICE OF INSPECTOR GENERAL 
                




                        Audit of the U.S. Chemical Safety
                        and Hazard Investigation Board’s
                        Fiscal Years 2013 and 2012
                        Financial Statements

                        Report No. 14-1-0038                December 16, 2013




Scan this mobile code
to learn more about
the EPA OIG.
Hotline                                        Suggestions for Audits or Evaluations
To report fraud, waste or abuse, contact       To make suggestions for audits or evaluations,
us through one of the following methods:       contact us through one of the following methods:

email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
phone:    1-888-546-8740                       phone:    1-202-566-2391
fax:      1-202-566-2599                       fax:      1-202-566-2599
online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

write:	   EPA Inspector General Hotline        write:	   EPA Inspector General
          1200 Pennsylvania Avenue, NW                   1200 Pennsylvania Avenue, NW
          Mailcode 2431T                                 Mailcode 2410T
          Washington, DC 20460                           Washington, DC 20460
                        U.S. Environmental Protection Agency                                                   14-1-0038
                        Office of Inspector General                                                     December 16, 2013



                        At a Glance
Why We Did This Review              Audit of the U.S. Chemical Safety and Hazard
We performed this audit in          Investigation Board’s Fiscal Years 2013 and 2012
accordance with the                 Financial Statements
Accountability of Tax Dollars
Act of 2002, which requires the      What Brown and Company Found
U.S. Chemical Safety and
Hazard Investigation Board          Brown and Company rendered an unmodified                The CSB received an
(CSB) to prepare, and the           opinion on the CSB’s financial statements for           unmodified opinion
Office of Inspector General         fiscal years 2013 and 2012, meaning that the            for its fiscal years
(OIG) to audit, the Board’s         statements were fairly presented and free of            2013 and 2012
financial statements each year.                                                             financial statements.
                                    material misstatements.

The U.S. Environmental              In planning and performing its audit, Brown and Company considered the CSB’s
Protection Agency’s OIG, which      internal control over financial reporting. Brown and Company noted no matters
also serves as the Inspector        involving the internal control and the CSB operation that it considered to be a
General for CSB, contracted         material weakness. A material weakness is a deficiency, or combination of
with Brown and Company,             deficiencies, in internal control, such that there is a reasonable possibility that a
CPAs, PLLC, to perform the          material misstatement of the entity’s financial statements will not be prevented, or
audit of the CSB’s fiscal years     detected and corrected, on a timely basis. A significant deficiency is a deficiency
2013 and 2012 financial             in internal control, or a combination of deficiencies in internal control, that is less
statements.                         severe than a material weakness, yet important enough to merit attention by
                                    those charged with governance.
This report addresses the
following CSB goal:                 As part of obtaining reasonable assurance about whether the CSB’s financial
                                    statements are free of material misstatement, Brown and Company performed
  Preserve the public trust        tests of the CSB’s compliance with certain provisions of laws and regulations,
    by maintaining and              contracts, and grant agreements, noncompliance with which could have a direct
    improving organizational        and material effect on the determination of financial statement amounts. Brown
    excellence.                     and Company’s fiscal year 2013 audit disclosed no instances of noncompliance
                                    or other matters that are required to be reported under Government Auditing
                                    Standards or Office of Management and Budget Bulletin No. 14-02.

                                    Brown and Company is responsible for the attached auditor’s report and the
                                    conclusions expressed in the report. We do not express any opinion or
                                    conclusions on the CSB’s financial statements, internal control or compliance
                                    with laws and regulations.
For further information,
contact our public affairs office    CSB’s Comments
at (202) 566-2391.
                                    The CSB agreed with Brown and Company’s report.
The full report is at:
www.epa.gov/oig/reports/2014/
20131216-14-1-0038.pdf
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460


                                                                                THE INSPECTOR GENERAL




                                          December 16, 2013

The Honorable Rafael Moure-Eraso, Ph.D.
Chairperson and Chief Executive Officer
U.S. Chemical Safety and Hazard Investigation Board
2175 K Street, NW, Suite 400
Washington, DC 20037-1809

Subject: 	 Report No. 14-1-0038, Audit of the U.S. Chemical Safety and Hazard Investigation Board’s
           Fiscal Years 2013 and 2012 Financial Statements

Dear Dr. Moure-Eraso:

This letter transmits the audit report on the U.S. Chemical Safety and Hazard Investigation Board’s
(CSB’s) fiscal years 2013 and 2012 financial statements. The audit is required by Public Law 107-289,
the Accountability of Tax Dollars Act of 2002.

The independent public accounting firm of Brown and Company, CPAs, PLLC, performed the audit
of the CSB financial statements as of and for the fiscal years ended September 30, 2013 and 2012.
The audit was required to be done in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States; Office of Management and Budget Bulletin No. 14-02,
Audit Requirements for Federal Financial Statements; and the Financial Audit Manual of the
Government Accountability Office/President’s Council on Integrity and Efficiency.

Brown and Company, CPAs, PLLC, is responsible for the enclosed auditor’s report dated December 9,
2013, and the opinions and conclusions expressed in the report. We do not express any opinion or
conclusions on the CSB’s financial statements, internal control or compliance with laws and regulations.

Should you have any questions, please contact Richard Eyermann at (202) 566-0565 or
eyermann.richard@epa.gov, or Bill Spinazzola at (202) 566-2568 or spinazzola.bill@epa.gov.


                                                    Sincerely,



                                                    Arthur A. Elkins Jr.


Enclosures
cc: 	 Daniel Horowitz, Ph.D., Managing Director, CSB
      Elizabeth A. Robinson, Finance Director, CSB
      Anna Brown, Director of Administration and Audit Coordinator, CSB
      Richard Loeb, General Counsel, CSB
      Kimberly Penn, Audit Manager, Brown and Company, CPAs, PLLC
      Gail Jenifer, Managing Partner, Brown and Company, CPAs, PLLC
                                INDEPENDENT AUDITOR'S REPORT



Office of Inspector General
Chairman and CEO
U.S. Chemical Safety and Hazard Investigation Board
Washington, D.C.


Report on the Financial Statements

We have audited the accompanying balance sheets of the U.S. Chemical Safety and Hazard Investigation
Board (CSB) as of September 30, 2013 and 2012, and the related statements of net cost, changes in net
position, and budgetary resources, for the years then ended (collectively referred to as the financial
statements), and the related notes to the financial statements.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these financial statements in
accordance with accounting principles generally accepted in the United States of America; this includes
the design, implementation, and maintenance of internal control relevant to the preparation and fair
presentation of financial statements that are free from material misstatement, whether due to fraud o r
error.

Auditor’s Responsibility

Our responsibility is to express an opinion on these financial statements based on our audit. We
conducted our audit in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States; and the Office of Management and Budget
(OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and
OMB Bulletin No. 14-02, require that we plan and perform the audit to obtain reasonable assurance about
whether the financial statements are free from material misstatements.

An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in
the financial statements. The procedures selected depend on the auditor’s judgment, including the
assessment of the risks of material misstatement of the financial statements, whether due to fraud or error.
In making those risk assessments, the auditor considers internal control relevant to the entity’s preparation
and fair presentation of the financial statements in order to design audit procedures that are appropriate in
the circumstances, but not for the purpose of expressing an opinion on the effectiveness of the entity’s
internal control. Accordingly, we express no such opinion. An audit also includes evaluating the
appropriateness of accounting policies used and the reasonableness of significant accounting estimates
made by management, as well as evaluating the overall presentation of the financial statements.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for
our audit opinion.




                           1101 MERCANTILE LANE, SUITE 122 ● LARGO, MD 20774

          PHONE: (240) 770-4900 ● FAX: (301) 773-2090 ● mail@brownco-cpas.com ● www.brownco-cpas.com

Opinion on the Financial Statements

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of CSB as of September 30, 2013 and 2012, and its net costs, changes in net position,
and budgetary resources for the years then ended, in accordance with accounting principles generally
accepted in the United States of America.

Other Matters

Accounting principles generally accepted in the United States of America require that the information in
the Management’s Discussion and Analysis (MD&A) and Required Supplementary Information (RSI)
sections be presented to supplement the basic financial statements. Such information, although not a part
of the basic financial statements, is required by the Federal Accounting Standards Advisory Board, who
considers it to be an essential part of financial reporting for placing the basic financial statements in an
appropriate operational, economic, or historical context. We have applied certain limited procedures to
the required supplementary information in accordance with auditing standards generally accepted in the
United States of America, which consisted of inquiries of management about the methods of preparing the
information and comparing the information for consistency with management's responses to our inquiries,
the basic financial statements, and other knowledge we obtained during our audit of the basic financial
statements. We do not express an opinion or provide any assurance on the information because the limited
procedures do not provide us with sufficient evidence to express an opinion or provide any assurance.

Report on Internal Control Over Financial Reporting

In planning and performing our audit of the financial statements, we considered CSB’s internal control
over financial reporting (internal control) to design audit procedures that are appropriate in the
circumstances for the purpose of expressing an opinion on the financial statements, but not for the
purpose of expressing an opinion on the effectiveness of CSB’s internal control. Accordingly, we do not
express an opinion on the effectiveness of CSB’s internal control.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material mis statement
of the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less
severe than a material weakness, yet important enough to merit attention by those charged with
governance.

Our consideration of the internal control was for the limited purpose described in the first paragraph of
this section and was not designed to identify all deficiencies in internal control over financial reporting
that might be deficiencies, significant deficiencies or material weaknesses. In our fiscal year 2013 audit,
we did not identify any deficiencies in internal control that we consider to be a material weakness.
However, material weaknesses may exist that have not been identified.




                                                      2

Report on Compliance and Other Matters

As part of obtaining reasonable assurance about whether CSB’s financial statements are free from
material misstatement, we performed tests of its compliance with applicable provisions of laws,
regulations, contracts and grant agreements, noncompliance with which could have a direct and material
effect on the determination of financial statement amounts. However, providing an opinion on
compliance with those provisions was not an objective of our audit, and accordingly, we do not express
such an opinion. The results of our tests disclosed no instances of noncompliance or other matters that
are required to be reported under Government Auditing Standards or OMB Bulletin No. 14-02.

Management’s Responsibility for Internal Control and Compliance

CSB’s management is responsible for (1) evaluating effectiveness of internal control over financial
reporting based on criteria established under the Federal Managers Financial Integrity Act (FMFIA), (2)
providing a statement of assurance on the overall effectiveness of internal control over financial reporting,
(3) ensuring CSB’s financial management systems are in substantial compliance with FFMIA
requirements, and (4) ensuring compliance with other applicable laws and regulations.

Auditor’s Responsibilities

We are responsible for: (1) obtaining a sufficient understanding of internal controls over financial
reporting to plan the audit, (2) testing compliance with certain provisions of laws and regulations that
have a direct and material effect on the financial statements and applicable laws for which OMB Bulletin
14-02 requires testing, and (3) applying certain limited procedures with respect to the MD&A and other
RSI.

We did not evaluate all internal controls relevant to operating objectives as broadly established by the
FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient operations.
We limited our internal control testing to testing controls over financial reporting. Because of inherent
limitations in internal control, misstatements due to error or fraud, losses, or noncompliance may
nevertheless occur and not be detected. We also caution that projecting our audit results to future periods
is subject to risk that controls may become inadequate because of changes in conditions or that the degree
of compliance with controls may deteriorate. In addition, we caution that our internal control testing may
not be sufficient for other purposes.

We did not test compliance with all laws and regulations applicable to CSB. We limited our tests of
compliance to certain provisions of laws and regulations that have a direct and material effect on the
financial statements and those required by OMB Bulletin 14-02 that we deemed applicable to CSB’s
financial statements for the fiscal year ended September 30, 2013. We caution that noncompliance with
laws and regulations may occur and not be detected by these tests and that such testing may not be
sufficient for other purposes.

Purpose of the Report on Internal Control over Financial Reporting and the Report on Compliance
and Other Matters

The purpose of the Report on Internal Control over Financial Reporting and the Report on Compliance
and Other Matters sections of this report is solely to describe the scope of our testing of internal control
and compliance and the result of that testing, and not to provide an opinion on the effectiveness of CSB’s
internal control or on compliance. These reports are an integral part of an audit performed in accordance
with Government Auditing Standards in considering CSB’s internal control and compliance.
Accordingly, these reports are not suitable for any other purpose.



                                                     3

This report is intended solely for the information and use of the Office of Inspector General, the
management of CSB, OMB, and Congress, and is not intended to be and should not be used by anyone
other than these specified parties.




Largo, Maryland
December 9, 2013




                                                4

